33

APPENDIX
APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

I

No. 20-10115
Non-Argument Calendar
D.C. Docket No. l:18-cv-03284-TCB
NATHANIEL BORRELL DYER,
Plaintiff - Appellant,
versus
ATLANTA INDEPENDENT SCHOOL SYSTEM,
Defendant - Appellee. '
Appeal from the United States District Court for the
Northern District of Georgia
(March 22, 2021)
Before MARTIN, BRANCH, and LAGOA, Circuit Judges.
PER CURIAM:
Nathaniel Dyer, pro se, appeals the district court’s
order granting summary judgment in favor of Atlanta
Independent School System (“AISS”). Dyer filed this
action against AISS asserting claims under the First and
Fourteenth Amendments pursuant to 42 U.S.C. § 1983, as
well as three state-law tort claims. After dismissing the tort
claims, the district court granted summary judgment in
favor of AISS on Dyer’s § 1983 claims. Finding no violations
of his constitutional rights, we affirm.
I. FACTUAL AND PROCEDURAL HISTORY
Since 2006, Dyer, a graphic designer by trade, worked
directly with schools in the Atlanta area and also operated
independent youth organizations, which provided services
to children in the Atlanta area. His working relationship
with the Atlanta school system, however, soured sometime

34

in 2007 when he allegedly witnessed administrators at one
middle school engaging in “unethical and unprofessional
manner which violated federal laws.” Dyer took his
concerns directly to AISS.
AISS holds various types of monthly meetings, including
“community meetings.” The community meetings are open
to the public where, at reserved times, members of the
community can offer “input . . . regarding policy issues, the
educational program, or any other aspect of AISS business
except confidential personnel issues.” If a member of the
community wishes to speak during the public-comment
portion, he or she must register in person prior to the
meeting, and the chairperson must recognize the person
before he or she may speak. To maintain proper decorum
and avoid disruptive meetings, AISS established several
policies with which members of the public in attendance
are expected to comply. For example, AISS board policy
BC-R(l) prohibits those in attendance from applauding,
cheering, jeering, or engaging in speech that “defames
individuals or stymies or blocks meeting progress.” Such
conduct may even be “cause for removal from the meeting
or for the board to suspend or adjourn the meeting.”
Sometime in 2009, Dyer’s relationship with AISS
devolved from vocal criticism to ugly opposition. For
instance, outside of one of the community meetings, he
distributed a flyer depicting the former superintendent
of AISS in a Ku Klux Klan robe. In his own words, this
flyer was meant to be a way of engaging in “psychological
warfare.” Doubling-down on that effort, he created other
flyers depicting AISS board members as flying monkeys
and clowns. The timeline is not particularly clear, but these
actions began years—up to a decade—of heated, over-thetop rhetoric from Dyer directed towards the AISS board
members.
The situation reached a tipping point when Dyer
directed racially-charged, derogatory epithets like the
“N-word,” “coons,” and “buffoons” toward the board at the
January 2016 community meeting. This episode marked
the beginning of Dyer receiving multiple suspensions from

35

speaking at, and later attending, the AISS community
meetings. In a January 15, 2016, letter, AISS suspended
Dyer from speaking at meetings for six months.
Nonetheless, he attended the February 2016 community
meeting, where he was not permitted to speak and was
escorted to his seat by police. After this first suspension
ended in July 2016, AISS again suspended Dyer in
October 2016, this time for over a year, for “inappropriate
and disruptive behavior” at the October 2016 meeting.
AISS warned him that similar conduct in the future
would result in a permanent suspension of his speaking
privileges at community meetings. Dyer’s third suspension
came in February 2018 after AISS claimed he again used
racial slurs at a prior meeting. Under the terms of this
last suspension, Dyer could not enter AISS property or
communicate with any AISS employee for a year. He
contends that he was not told how to, or even if he could,
contest any of the suspensions.
Dyer filed a five-count complaint in state court in
Fulton County, Georgia, alleging violations of the First
Amendment and due process under the Fourteenth
Amendment under 42 U.S.C. § 1983, as well as three statelaw claims of slander, discrimination and retaliation, and
harassment. He sought declaratory relief, an injunction
prohibiting AISS from enforcing its no-trespass warning,
$10,000,000 in damages, and a public apology. AISS
removed the action to federal court and then moved to
dismiss the complaint for failure to state a claim, raising
several arguments not relevant to: this appeal. The
district court agreed in part,..determining,that Dyer’s,
claims predating June. 4,;2016, were,barred by the twoyear statute of limitations and.jthat his.state law;claims
were barred by sovereign immunity, AISS then .moved
for summary judgment on Dyer.’s constitutional claims.
,
In its view, the community meetings. AIS.S holds are. ,
“limited, public, forums” because participation was limited
to registered speakers and topics ^relating.to the school*
system.,Although.conceding. Dyer!s,.oftensive speech \yas
“protected” under.the. First Amendment, AISS argued

36
there was no genuine dispute that, as a matter of law, its
suspending Dyer from attending community meetings was
lawful because that offensive speech was disruptive and
violated its policies on proper decorum. In other words,
AISS insisted that it removed Dyer from its community
meetings “not because it disagreed with Dyer’s message,
but because it regarded his use of racially-insensitive
language to be . . . disruptive to the meeting.” (emphasis
added). As for Dyer’s due process claim, AISS argued that
the claim failed because it was duplicative of the First
Amendment claim.
In support of its motion, AISS submitted a declaration
from -its deputy superintendent. Among many other things,
the deputy superintendent stated that, at the October 16
community meeting, Dyer refused to leave the speakers’
podium when instructed to do so. Following Dyer’s refusal,
police officers escorted Dyer from the meeting, and Dyer
continued to shout and curse outside of the meeting room.
AISS also submitted the three suspension letters: one from
January 15, 2016, one from October 11, 2016, and one from
February 6, 2018. In the January 15 letter, AISS told Dyer
that he was suspended because his use of racial slurs was
“outside the bounds [of] decorum,” “offensive,” and “failed
to advance any meaningful discourse.” In the October 11
letter, AISS stated that Dyer’s use of the word “sambos”
was “completely outside the bounds of civility,” “offensive,”
and “failed to advance any meaningful discourse.” AISS
informed Dyer that he was suspended from participating
in meetings or entering AISS property until December
31, 2017. AISS also told Dyer that, if he entered school
property, he would be arrested for trespassing and warned
him of additional consequences if his conduct continued,
including permanent suspension of his privilege to speak
during meetings. In the February 6 letter, AISS again
suspended Dyer from meetings and prohibited him from
entering school property because of his “inappropriate
and disruptive behavior.” The suspension and trespass
warning were for the remainder of the term of the letter’s
author, and the letter again told Dyer that, if he entered

. t-i

37

school property, he would be arrested. It stated that his
flyers were offensive and “failed to advance any meaningful
discourse.”
On December 5, 2019, the district court granted
AISS’s motion for summary judgment on both remaining
constitutional claims. For the First Amendment claim,
the district court found that AISS’s restrictions on Dyer
were content-neutral, as AISS “cut off Dyer’s speech
because he.expressed himself in a hostile manner that
disrupted meeting progress.” The district court also found
the restrictions were narrowly-tailored to advance a
substantial government interest, as AISS had a substantial
government interest in “preserving meeting decorum” and
the suspensions were necessary because Dyer continued
to disrupt meetings when he was on school property,
regardless of whether he was able to speak or enter the
meeting room. As to the Fourteenth Amendment claim, the
district court found that, although Dyer had a protected
liberty interest in attending the AISS community meetings,
AISS had no requirement to provide him. a pre-deprivation
remedy because he had an adequate post-deprivation
remedy in the Georgia Open Meetings Act (“GOMA”). See
Ga. Code Ann. § 50-14-1. Therefore, the district court found
that there was no procedural due process violation. Dyer
timely filed his notice of appeal.
II. STANDARD OF REVIEW
We review de novo a district court’s-order granting
summary; .judgment. Hyman.v. Nationwide Mut. Fire
Ins. Co.;304 F.3d 1179,. 1185 (11th Cir: 2002). Summary
judgment is appropriate when there is no genuine issue of
material fact and the moving party is entitled to judgment
as a matter of law. Fed. R, Ciy. P. 56(a). “The moving party
bears the initial burden of demonstrating the. absence of
a genuine dispute of material fact:” FindWhat Inv’r Grp.
v. FindWhat.com,-.-658 F:3d 1282, 1307 (11th Cir. 2011).
We view allv e vidence arid' all’ re asonatfie 'inference s drawn
therefrom in “a light most favorable to the non-moying
party.” Guideone Elite Ins. Co. v. Old Cutler Presbyterian

38

Church, Inc., 420 F.3d 1317, 1325-26 (11th Cir. 2005)
(quoting Witter v. Delta Air Lines, Inc., 138 F.3d 1366, 1369
(11th Cir. 1998)).
III. ANALYSIS
On appeal, Dyer argues that the district court erred in
granting summary judgment in favor of AISS on his First
Amendment and Fourteenth Amendment claims brought
under 42 U.S.C. § 1983.1 We find Dyer’s arguments without
merit.
A. The First Amendment Claim
Dyer argues that the district court erred as a matter of
law when it found that AISS had not violated his right to
free speech under the First Amendment. Specifically, he
contends that AISS placed restrictions on his speech that
1 Dyer further asserts that the district court erred by not finding
that AISS had “altered and falsified evidence in violation of Georgia
Code § 16-10-20.1 and ABA Model Rule of Professional Conduct Rule
3.3.(a)(3).” Specifically, Dyer contends that there is a dispute between
the February 6 letter and a different letter dated February 8. It appears
that Dyer presumed that the February 6 letter shown to him at his
deposition was actually the February 8 letter and AISS deliberately
misled him. He then argued to the district court, and only passingly
. here on appeal, that AISS “falsified” this evidence.
While we construe pro se briefs liberally, Harris v. United Auto. Ins.
Grp., Inc., 579 F.3d 1227, 1231 n.2 (11th Cir. 2009), pro se parties are
still required to follow the rules of court, Timson v. Sampson, 518 F.3d
870, 874 (11th Cir. 2008). “A party fails to adequately ‘brief a claim
when he does not ‘plainly and prominently’ raise it.” SapuppO u. Allstate
Floridian Ins. Co., 739 F.3d 678, 681-82 (11th Cir. 2014) (quoting
Cole v. U.S. Att’y Gen., 712 F.3d 517, 530 (11th Cir. 2013)). This
occurs when the party only casually raises an issue, makes passing
reference to the claim, or fails to elaborate the argument in the briefs
argument section. Id.; see also Fed. R. App. P. 28(a)(8)(A) (explaining
that a brief must contain .an “appellant’s contentions and the reasons
for them, with citations to the authorities and parts of the record on
which the appellant relies”). Beyond a conclusory assertion, Dyer fails
to adequately explain—and cite to legal authority demonstrating—how
AISS falsified evidence and how that alleged falsification constituted
violations of section 16-10-20.1 and rule 3.3(A)(3). We therefore deem
this argument abandoned,

39
were neither content-neutral nor narrowly tailored. He also
argues that the speech and conduct that AISS complained
of were “satire” and protected under the First Amendment.
As an initial matter, we will address only Dyer’s first
claim—whether AISS’s restrictions were content-neutral.
We offer no comment on the issues of narrow-tailoring or
satire because Dyer has failed to brief the issue adequately
or failed to raise it below to the district court. See Sapuppo
v. Allstate Floridian Ins. Co., 739 F.3d 678, 681—82 (11th
Cir. 2014) (noting that “[a] party fails to adequately ‘brief a
claim when he does not ‘plainly and prominently’ raise it.”);
Access Now, Inc. v. Sw. Airlines Co., 385 F.3d 1324, 1331
(11th Cir. 2004) (explaining that an issue raised for the
first time in an appeal will not be considered by this court).
Although the First Amendment protects individuals’
freedom of speech, there are certain limitations to that
right. See Jones v. Heyman, 888 F.2d 1328, 1331 (11th Cir.
1989). Indeed, “the First Amendment does not guarantee
the right to communicate one’s views at all times and
places or in any manner that may be desired.” Heffron v.
Int’l Soc’yjorKrishna Consciousness, 452 U.S. 640, 647
(1981). For instance, it is “well settled that the government
need not permit all forms of speech on property that it owns
and controls.” Int’l Soc’y for Krishna Consciousness, Inc. v.
Lee, 505 U.S. 672, 678 (1992).
Because Dyer’s claim is based on private speech on
government property, we apply the three-step analysis
established by the Supreme Court in Cornelius v. NAACP
Legal Defense & Education Fund, Inc., 473 U.S. 788
(1985). First, because not all speech is protected, we
must determine if Dyer engaged in speech protected by
the First Amendment. Id, at 797. Second,, if that speech
was protected, “we must identify the nature of the
forum, because the extent to which the Government may
limit access depends on whether the forum is public or
nonpublic ” Id. Finally, we must determine whether AISS
suspending Dyer from its public meetings satisfied “the
requisite standard”, that is applied to, the forum identified
in step two. Id. The first, and second steps are uncontested.
• *,

. j.

.

40
AISS concedes Dyer’s speech was protected by the First
Amendment, arid we agree. See Matal u. Tam, 137 S. Ct.
1744, 1751 (2017) (“Speech may not be banned on the
ground that it expresses ideas that offend.”); Texas v.
Johnson, 491 U.S. 397, 414 (1989) (“If there is a bedrock
principle underlying the First Amendment, it is that the
government may not prohibit the expression of an idea
simply because society finds the idea itself offensive or
disagreeable.”). We also agree with the parties’ other
concession—that an AISS community meeting is a “limited
public forum.” See Cambridge Christian Sch. Inc. v. Fla.
High Sch. Athletic Assn, Inc., 942 F.3d 1215, 1237 (11th
Cir. 2019) (“[W]e have identified the public-comment
portions of school board meetings, among other things, as
limited public forums.”).
We next turn to the proper standard against which
AISS’s restrictions must be assessed. “The government
may restrict access to limited public fora by content-neutral
conditions for the time, place, and manner of access, all
of which must be narrowly tailored to serve a significant
government interest.” Crowder v. Hous. Auth. of Atlanta,
990 F.2d 586, 591 (11th Cir. 1993)). “[A] content-neutral
ordinance is one that ‘places no restrictions on . . . either
a particular viewpoint or any subject matter that may
be discussed.’” Solantic, LLC v. City of Neptune Beach,
410 F.3d 1250, 1259 (11th Cir. 2005) (second alteration
in original) (quoting Hill v. Colorado, 530 U.S. 703, 723
(2000)).
Here, the AISS board policies outlining how someone may
speak at a community meeting, prohibiting disruption, and
requiring decorum are content-neutral policies. We agree
with the district court’s determination that AISS did not
regulate Dyer’s speech based on its content, i.e., because
it was offensive. Rather, AISS regulated Dyer’s offensive
speech because it was disruptive. The letters sent by
AISS explained that his suspensions were the result of his
conduct “fail[ing] to advance any meaningful discourse.”
The fact that AISS also told Dyer that his comments were
“abusive, abhorrent, [and] hate-filled” was merely support

41

for the suspensions for disruptive and unruly behavior; the
offensiveness of the comments themselves was not the basis
for his suspension. We have made this distinction before,
and we believe it is a meaningful one. See, e.g., Jones, 888
F.2d at 1332 (“The district court found that Jones had
complied with the time, place and manner restrictions
imposed on the meeting and was silenced because of the
content of his speech. We disagree. In our opinion, the
mayor’s actions resulted not from disapproval of Jones’
message but from Jones’ disruptive conduct and failure to
adhere to the agenda item under discussion.”).
Moreover, AISS’s actions seem justified as, by Dyer’s
own admission, his aggressive and offensive choice of
words were calculated to “send a message” and engage in
“psychological warfare.” Removing Dyer for his disruptive
behavior and lack of proper decorum at an AISS community
meeting was content-neutral and, thus, permissible.
The district court therefore did not err in granting AISS
summary judgment as to the First Amendment claim.
B. The Fourteenth Amendment Claim
Regarding his Fourteenth Amendment claim, Dyer
argues the district court erred as a matter of law when it
found he had an adequate post-deprivation remedy in the
form of the GOMA. We disagree.
The Fourteenth Amendment prohibits any state from
“depriv[ing] any person of life, liberty, or property, without
due process of law.” U.S. Const, amend. XIV, § 1. The most
basic tenets of procedural due process are notice and an
opportunity to be heard. Mullane v. Cent. Hanover Bank
& Tr. Co., 339 U.S. 306, .313 (1950). To state a claim for
such a. violation, a plaintiff must show three elements:
“(1) a.deprivation of a constitutionally-protected liberty or
property interest; (2) state action; and (3) constitutionallyinadequate process.” Arrington v. Helms, 438 F.3d 1336,
1347 (11th Cir. 2006) (quoting Grqyden v. Rhodes, 345 F.3d
1225,. 1232 (11th Cir. 2003)). It is undisputed that AISS’s
actions constitute state action. > : . ,
As for the protected liberty or property interest, the

42
district court noted that Dyer does not expressly argue or
identify any such interest. But, again, liberally construing
this pro se appeal, we interpret his claim as alleging a
deprivation of a liberty interest in attending public school
board meetings. We, however, have never recognized such
a liberty interest. Although the district court held that such
an interest is protected, relying on, Cyr v. Addison Rutland
Supervisory Union, 955 F. Supp. 2d 290, 295—96 (D. Vt.
2013), we need not reach this issue today because Dyer’s
due process claim fails on the third element—there was an
adequate post-deprivation remedy available.
Dyer argues that “some kind of a hearing” is required
“before the State deprives a person of liberty or property.”
See Zinermon v. Burch, 494 U.S. 113, 127 (1990). But
this is not necessarily true all of the time. The Supreme
Court has recognized that a pre-deprivation process may
be “impracticable” in some cases, as a public body cannot
always know when a deprivation will occur. Hudson v.
Palmer, 468 U.S. 517, 534 (1984). If a pre-deprivation
hearing is impracticable, we must determine whether the
plaintiff had an “adequate post-deprivation remedy” for the
alleged violation. Id. at 534; see also Goss v. Lopez, 419 U.S.
565, 582 (1975) (holding that post-deprivation remedies
may be constitutionally adequate in situations where prior
notice and hearing cannot be provided, including situations
where there is a continuing danger to persons or property
or an ongoing threat of disruption).
AISS argues that a pre-deprivation hearing would
not have been possible here because it could not have
anticipated how or when Dyer would disrupt its community
meetings. We agree. Here, similar to the situation in
Goss, pre-deprivation remedies were not practicable as
AISS could not have predicted when and how Dyer would
act at the community meetings and because Dyer posed
an ongoing threat of disruption. Moreover, Dyer had an
adequate post-deprivation remedy in state law under
GOMA, which authorizes an individual to file a civil suit
when he or she is affected by a violation of the statute,
including the requirement that government meetings be

43

open to the public. See Ga. Code Ann. § 50-14-1. Through
GOMA, Dyer could seek an injunction or other equitable
relief to challenge his trespass notice. See id.; see also
McKinney v. Pate, 20 F.3d 1550, 1557 (11th Cir. 1994)
(holding that an adequate state remedy providing for a
post-deprivation process is sufficient to cure a procedural
deprivation). Because a pre-deprivation remedy was
impracticable in this situation and because GOMA provides
an adequate post-deprivation remedy, Dyer’s Fourteenth
Amendment claim fails.
IV. CONCLUSION
For the reasons discussed, we affirm the district court’s
order granting summary judgment in favor of AISS.
AFFIRMED.

44

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
NATHANIEL BORRELL DYER,
Plaintiff,
v.
ATLANTA INDEPENDENT SCHOOL SYSTEM
(Atlanta Public Schools),
Defendant.
CIVIL ACTION FILE
NO. l:18-cv-3284-TCB
ORDER

This case comes before the Court on the motion [34]
for summary judgment of Defendant Atlanta Independent
School System a/k/a Atlanta Public Schools (“APS”).
I. Background
Plaintiff Nathaniel Dyer is a graphic designer by trade
but spends much of his time as a community advocate for
issues related to children and education in the Atlanta
area. Over the past decade or more, Dyer has repeatedly
found himself at odds with Atlanta schools and their
leadership.
A significant incident in this rocky relationship occurred
in 2006, while Dyer was volunteering at John F. Kennedy
Middle School. He alleges that APS caused him to be
prosecuted for false arrest after he broke up a violent
fight between two students. The charges were eventually
dismissed, but Dyer was no longer allowed to volunteer at
the school.
After this disruptive episode, Dyer remained engaged
with APS. He considered it his mission to police APS and

45

its officials for “federal violations and problems plaguing
the district. . . [1-1] at f 12.
In 2009, Dyer distributed a flyer that depicted former
interim superintendent of APS Erroll Davis in a Ku Klux
Klan robe. Dyer argues that Davis’s role in reassigning
students to different schools is akin to the activities of the
KKK and contends that he is engaging in “psychological
warfare” to draw the public’s attention to the APS system.
[82] at 21—24. Dyer-would subsequently make other flyers
containing inflammatory rhetoric. One.depicts members of
the APS board of education as flying monkeys; another calls
the APS board members buffoons and clowns.
Dyer’s activism continued to get him in trouble with
APS and its officials. In addition to his messaging via
printed flyers, Dyer would deliver his criticisms of APS
during public comment sessions at APS board meetings.
Though Dyer attended many school board meetings, three
are particularly relevant.
In January 2016, Dyer attended an APS school board
meeting in which,he admits to using the words “nigger,”
“coons,” and “buffoons,” all in reference to the board
members. The board subsequently suspended Dyer from
attending board meetings until July 2016, noting that the
comments failed to advance any meaningful discourse at
the meetings and that the language was inappropriate—in
the board’s view—to use in front of the children who were
present. In the letter informing Dyer of his suspension,
he was warned that if he spoke at another meeting using
similar language, he might be permanently suspended.1
After the.conclusion of his first suspension, Dyer
attended another board meeting on October 10, 2016..
During the public comment portion of that meeting,
1 At the motion-to-dismiss stage of this litigation, the Court
concluded that the two-year statute of limitations barred Dyer’s claims
predating June 4, 2016. Accordingly, the Court’s review of Dyer’s,,
First Amendment claim is hmited.to violations occurring, after June 4.
Because a portion of Dyer’s..suspension.fqllqwingithe January 15 letter
falls within .the. applicable limitations .period,.however, thejCourt will
also consider that portion of Dyer’s first suspension.

46
he used the word “Sambos”2 in reference to children at
APS. Arguing that he was not given an opportunity to
finish or expound upon his statement before being asked
to step down, Dyer refused to leave the podium. Police
were ultimately notified, and they escorted Dyer from the
meeting amidst his shouting.
The next day, Dyer received a letter informing him
that he had been suspended from speaking at APS board
meetings for fourteen months, through December 31, 2017.
He was warned that similar conduct in the future would
result in a permanent suspension of speaking privileges.
The letter also served as a trespass warning, instructing
Dyer not to set foot on APS property until January 1, 2018,
or risk being arrested for trespassing.
On February 5, 2018, Dyer attended another board
meeting. This time, Dyer was, in his word, “harassed”
by resource officers for attending. [1-1] at 23. Dyer did
not speak during that board meeting, but he passed out
photoshopped fliers containing the tagline “unnigged
coming soon” and a photo of APS Superintendent Meria
J. Carstarphen wearing a football jersey superimposed
with the word “FALCOONS.” The next day, Dyer received
a suspension letter that accused him of using “racist and
hate-filled epithets,” [1-1] f 47, that “failfed] to advance
any meaningful discourse.” [34-6] at 45. He was suspended
for the remainder of board chair Jason Esteves’s term and
warned again that he would be arrested for trespassing
if he stepped onto APS property during that same period.
Dyer was also warned a second time that any further
such conduct might result in a permanent suspension of
his speaking privileges at board meetings. On June 7,
Dyer filed this suit under 42 U.S.C. § 1983 against APS
for violations of his right to free speech under the First
2 At times, Dyer does not deny using the term “Sambos/' [34-6]
at 22-24. At other times, he insists that he instead used the term
“Samboed.” [36] at 33. To the extent Dyer is arguing that his conversion
of the term into the past tense cleanses it of its racial undertones, the
Court is unconvinced.

47
Amendment (count 1) and right to procedural due process
under the Fourteenth Amendment (count 2). He also
alleged state-law claims, but the Court dismissed the statelaw claims in its order [22] granting in part and denying in
part APS’s motion [2] to dismiss for failure to state a claim.
Now, APS has moved ,[34] for summary judgment. Dyer has
filed objections [35].3
II. Legal Standard
Summary judgment is appropriate when “there is no
genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” FED. R. CIV. P.
56(a). There is a “genuine” dispute as to a material fact if
“the evidence is such that a reasonable jury could return
a verdict for the nonmoving party.” FindWhat Inv’r Grp.
v. FindWhat.com, 658 F.3d 1282, 1307 (11th Cir. 2011)
(quoting Anderson:v. Liberty Lobby, Inc., All U.S. 242, 248
(1986)). In making this determination, however, “a court
may not weigh conflicting evidence or make credibility
determinations of its own.” Id. Instead, the court must
“view, all of the evidence in the, light most favorable to the
nonmoving party and draw all reasonable inferences in that
party’s fayor.” Id.
“The moving party bears the initial burden of
demonstrating the absence of a genuine dispute of material
fact.” Id. (citing Celotex Corp. u. Catrett, All U.S. 317, 323
(1986)). If the nonmoving party would have the burden of
proof at trial, there are two ways for the moving party to
satisfy this initial burden. United States v.- Four Parcels of
Real Prop., 941 F.2d 1428, 1437-38 (11th Cir. 1991). The
first is to produce “affirmative evidence demonstrating
3 As part of his response to APS’s motion-for summary judgment,
Dyer provided the Court with his “Statement of Undisputed.Material
Facts . ,. in support of its [sic] opposition and cross-motion for
summary judgment.”’ [37], [38] at 1*. Because Dyer makes no other
mention of a cross-motion for summary judgment and offers-no
argument or evidence in'-support of.suclv'a motion, the Court will treat
Dyer’s Statement of Undisputed Material'Facts solely, as support for his
opposition to APS’s motion, rather than as a separate cross-motion.

48
that the nonmoving party will be unable to prove its case
at trial.” Id. at 1438 (citing Celotex Corp., 477 U.S. at 331).
The second is to show that “there is an absence of evidence
to support the nonmoving party’s case.” Id. (quoting Celotex
Corp., All U.S. at 324). If the moving party satisfies
its burden by either method, the burden shifts to the
nonmoving party to show that a genuine issue remains
for trial. Id. At this point, the nonmoving party must “‘go
beyond the pleadings,’ and by its own affidavits, or by
‘depositions, answers to interrogatories, and admissions on
file,’ designate specific facts showing that there is a genuine
issue for trial.” Jeffery u. Sarasota White Sox, Inc., 64 F.3d
590, 593—94 (11th Cir. 1995) (quoting Celotex Corp., All
U.S. at 324).
III. Discussion
Dyer’s remaining claims concern two alleged
constitutional violations brought pursuant to § 1983.
Section 1983 creates no substantive rights. See Baker u.
McCollan, 443 U.S. 137, 144 n.3 (1979). Rather, it provides
a vehicle through which an individual may seek redress
when his federally protected rights have been violated by
an individual acting under color of state law. Livadas v.
Bradshaw, 512 U.S. 107, 132 (1994).
To state a claim for relief under § 1983, a plaintiff must
satisfy two elements. First he must allege that an act or
omission deprived him of a right, privilege, or immunity
secured by federal law. Hale v. Tallapoosa Cty., 50 F.3d
1579, 1582 (11th Cir. 1995). Second, he must allege that the
act or omission was committed by a state actor or a person
acting under color of state law. Id.
Here, the issue of state action is uncontested, so the
Court need only consider whether Dyer was deprived of his
federal constitutional rights.
Dyer first contends that APS’s suspensions infringed
upon his First Amendment right to free speech. Second,
he contends that his rights were suspended without due
process of law as required by the Fourteenth Amendment.

49
A. First Amendment Claim
Dyer alleges that APS violated his First Amendment
right to free speech by excluding him from public property
and instructing him not to communicate with APS officials
during the suspensions.
First Amendment claims proceed in three steps. First,
the Court determines whether Dyer’s “speech [was]
protected by the First Amendment...” Cornelius v. NAACP
Legal Def. & Educ. Fund, Inc., 473 U.S. 788, 797 (1985). If
so, the Court next “must identify the nature of the forum”
in which Dyer spoke. Id. Then the Court asks “whether the
justifications for exclusion from the relevant forum satisfy
the requisite standard.” Id. For a limited public forum,
the standard is reasonableness. Rosenberger v. Rector &
Visitors of Univ. ofVa., 515 U.S. 819, 829 (1995).
APS does not contest in its motion for summary
judgment that Dyer’s speech is protected, and the parties
do not dispute that the school board meetings were limited
public fora. Accordingly, the operative question is whether
APS’s regulation of Dyer’s speech, was reasonable.
To be reasonable, restrictions on speech in limited
public fora must be “content-neutral conditions for the time,
place, and manner of access, all of which must be narrowly
tailored to serve a significant government interest.”
Crowder v. Hous. Auth. of Atlanta, 990 F.2d 586, 591 (11th
Cir. 1993). The restrictions must also “leave open ample
alternative channels for communication.” Perry Educ. Ass’n
v. Perry Local Educators’ Ass’n, 460 U.S. 37, 45 (1983). The
Court will address each of these requirements in turn.4
4

Dyer also urges that the restrictions on his speech are a prior restraint. A
prior restraint is a type of content-based restriction on free speech that occurs
when the government has “den[ied] access to a forum before the expression oc­
curs.” Bourgeois u. Peters, 387 F.3d 1303,1319 (11th Cir. 2004) (quoting United
States v. Frandsen, 212 F.3d 1231, 1236-37 (11th Cir. 2000)). Prior restraints are
disfavored because “the enjoyment of protected expression [becomes] contingent
upon the approval of government officials.” White v. Baker, 696 F. Supp. 2d 1289,
1306 (N.D. Ga. 201:0) (citing Near v. Minnesota, 283 U.S. 697, 711-12 (1931)).
Courts in,this circuit have found that banning a member of the public from
attending or speaking at meetings for a period of less than a year because of past

50

1. Content Neutrality
“The restriction of speech is content-neutral if it is
justified without reference to the content of the regulated
speech.” Harris v. City of Valdosta, Ga., 616 F. Supp. 2d
1310, 1322 (M.D. Ga. 2009) (internal quotation marks and
citation omitted). “In determining whether a restriction is
content-neutral, the Court’s controlling consideration is
the purpose in limiting the Plaintiffs’ speech in a public
forum.” Id. (internal quotation marks and citation omitted).
“As long as a restriction serves purposes unrelated to the
content of the expression, it is content-neutral even if it
has an incidental effect upon some speakers or messages
but not others.” Id. (internal quotation marks and citation
omitted).
Here, APS stopped Dyer from speaking at meetings
because his use of racial epithets “offended the Board, staff,
and audience members.” [34-2] at 6.
While school officials cannot restrict public comments
simply because the content is offensive or controversial,
see Tinker u. Des Moines Independent Community School
District, 393 U.S. 503, 509 (1969) (finding that school
officials’ decision to prohibit students from wearing black
armbands in protest of the Vietnam War was a First
Amendment violation), if such speech causes a material
disruption, a substantial disorder, or invades of the
rights of others, that speech is “not immunized by the
constitutional guarantee of freedom of speech.” Id. at 513.
Here, APS officials were not regulating Dyer’s speech
commentary is a prior restraint. See Brown v. City of Jacksonville, Fla., No.
3:06-cv-122-J-20MHH, 2006 WL 385085, at *4 (M.D. Fla. Feb. 17, 2006) (citing
Polaris Amphitheater Concerts, Inc. v. City of Westerville, 267 F.3d 503,
507 (6th Cir. 2001)).
However, a prior restraint is not per se unconstitutional. Frandsen, 212 F.3d
at 1237. Instead, a prior restraint must “meet the requirements for reasonable time,
place, and manner restrictions of protected speech in public fora.” Coal, for the
Abolition of Marijuana v. City of Atlanta (CAMP), 219 F.3d 1301,1318
(11th Cir. 2000). Accordingly, the Court’s conclusion regarding the reasonableness
of the restrictions on Dyer’s speech is also determinative of Dyer’s claim regarding
APS’s use of a prior restraint.

51
because they were offended by and attempting to silence his
criticism of APS. Other attendees had previously expressed
criticism of APS without incident. Dyer himself before and
since the incidents in question—has been allowed to freely
criticize APS policy decisions and board members when he
has done so without the use of racial slurs.
Here, however, Dyer admits that he attempted to
“send a message” by engaging in “psychological warfare”
that involved the use of racial slurs. [33-1] at 74, 82.
Accordingly, APS cut off Dyer’s speech because he
expressed himself in a hostile manner that disrupted
meeting progress. See Arnold v. Ulatowski, No. 5:10-cv1043 (MAD/ATB), 2012 WL 1142897, at *5 (N.D.N.Y. Apr.
4, 2012) (finding that a disruption occurred where the
plaintiff admitted he was speaking loudly and angrily),
cf. Hammond v. S. Carolina State Coll., 272 F. Supp. 947
(D.C.S.C. 1967) (constraint of protest on state college
campus was unconstitutional because the protest was
orderly and non-disruptive).
Thus, APS’s restriction on Dyer’s free speech was
content-neutral. See Tinker, 393 U.S. at 509; Barnes v.
Zaccari, No. l:08-cv-77-CAP, 2008 WL 11339923, at *6
(N.D. Ga. Nov. 19, 2008) (finding that a restriction on free
speech in a school was appropriate where “the forbidden
conduct would materially and substantially interfere with
the requirements of appropriate discipline in the operation
of the school”); Kirkland v. Luken, 536 F. Supp. 2d 857,
875—76 (S.D. Ohio 2008) (holding that there was no First
Amendment violation where the speaker’s microphone
was turned off and the speaker, was removed from a public
hearing for using inappropriate language and shouting).
2. Narrowly Tailored to Advance a
Substantial Interest,
Even if content-neutral,, the restrictions on Dyer’s
speech must also be narrowly tailored to advance a
substantial government interest:
Courts have generally found that there is a strong
government interest in preserving decorum at board

52

meetings. See Kirkland, 536 F. Supp. 2d at 876 (finding
that “[t]he interest in conducting orderly meetings of the
City Council was a compelling state interest”); Scroggins
v. Topeka, 2 F. Supp. 2d 1362, 1373 (D. Kan. 1998) (“[T]
he Council’s interest in conducting orderly, efficient, and
dignified meetings and in preventing the disruption of
those meetings is a significant governmental interest.”).
In schools, this interest is designed to prohibit “the sort
of uninhibited, unstructured speech that characterizes a
public park.” Lowery v. Jefferson Cnty. Bd. of Educ., 586,
F.3d 427, 432 (6th Cir. 2009).
APS codified its interest in orderly meetings through
board policy BC-R(l), which provides that “[a]pplause,
cheering, jeering, or speech that defames individuals or
stymies or blocks meeting progress will not be tolerated and
may be cause for removal from the meeting . . . .” [34-3] at
3. Such rules of decorum “serve[] the important government
interest of preventing disruptions to its meetings.”
Scroggins, 2 F. Supp. 2d at 1373.
Although Dyer appears to concede that his removal
served APS’s legitimate interest in conducting an
orderly and efficient meeting, he attacks the facial
constitutionality of BC-R(l). He contends that it establishes
an unconstitutional prohibition on critical speech because
Defendants describe it in their briefing as prohibiting a
speaker from “mak[ing] defamatory statements about an
[APS] official” [34-3] at 27.
When ripped out of context, this fragment of APS’s
statement could be read to suggest that the policy prohibits
speakers from engaging in critical commentary about board
members.5 However, APS’s statement regarding BC-R(l)

5 Dyer appears to argue that prohibiting defamation is equivalent
to prohibiting a personal attack on an individual. Defamation is not
protected by the First Amendment, see United States v. Stevens, 559
U.S. 460, 468-69 (2010), so a board policy prohibiting defamation does
not give rise to a constitutional claim. However, district courts have
found that school board policies prohibiting personal attacks on board
members violate the First Amendment because the policies distinguish

53

reads in full as follows:
Nathaniel Dyer has spoken at numerous community
meetings, often making disparaging remarks about
[APS]’s policy decisions and the performance of various
[APS] officials and Board members. [APS] did not stop
Mr. Dyer from making those comments. However,
participants at public comments may not use certain
types of speech. For instance, a speaker could not use
profanity, make defamatory statements about an [APS]
official
Id. (emphasis added). In other words, the policy prohibits
defamatory statements—such as Dyer’s—that concern
APS officials because the policy prohibits all defamatory
statements. The Supreme Court has found that regulating
defamatory speech is permitted under the Constitution.
R.A.V. v. City of St. Paul, 505 U.S. 377, 383-84 (1992); see
also Holloman, ex rel. Holloman v. Harland, 370 F.3d 1252,
1280 (11th Cir. 2004).
Accordingly, the Court finds that APS board policy
BC-R(l) is constitutional and that, APS had a substantial
government interestin preserving meeting decorum.
Dyer also argues that his suspensions constitute an
overbroad, “categorical ban,” rather than being narrowly
tailored. [35-1] at 13.
For a restriction on speech to be narrowly tailored to
achieve a substantial government interest, the restriction
“need not be the least restrictive or least intrusive means
of’ serving the interest. Ward u. Rock Against Racism, 491
U.S. 781, 798 (1989). Instead, the government is prohibited
from “regulating] expression in such a manner that a
substantial portion of,the burden, on speech does not serve
to advance its goals.” Id. at 799. Here, the record reflects
that when Dyer was asked to refrain from using racial slurs
:V
,

4"

'

* **

*■' {

v... , -

. -

•

unfavorable comments from neutral or favorable ones. See MacQuigg u.
Albuquerque Pub. Sch. Bd. of Ediic., No. “12-1137.MCA/KBM; 2015 WL
13659218, at *4 (D.N.M. Apr. 6, 2015); see also Moore v. Asbury Park
Bd. ofEduc., No. Civ.A.05-2971 MLC,.2005 WL 2033687, at *11-13
(D.N.J. 2005). '
11
^' ;
' '
'
:

54

during meetings, he responded by shouting at the board
and continuing to cause a disruption. In the October 2016
meeting, police were ultimately required to remove Dyer
from the meeting after he refused to leave the podium;
even after he was removed from the meeting room, he does
not dispute that he continued to cause a disruption by
shouting outside of the room. When he was prevented from
speaking during a subsequent meeting, he passed out flyers
containing racial slurs. Because Dyer continued to disrupt
meetings when he was on school property, regardless of
whether he was permitted to speak or enter the meeting
room, his suspensions were necessary to preserve meeting
decorum. Accordingly, APS’s suspensions of Dyer were
narrowly tailored to serve APS’s legitimate interest in
maintaining order during the meetings.
3. Alternative Channels for Communication
The last requirement for a constitutionally valid
restriction is that there remain ample alternative channels
of communication. See Jones v. Heyman, 888 F.2d 1328,
1334 (11th Cir. 1989). Dyer operated a public-access
television show throughout his suspensions from APS board
meetings. He acknowledges that the concerns he previously
expressed during the public comment portion of the board
meetings comprised the “main brunt” of his show and that
as a result of the show, he was still able to publicly criticize
APS policies and officials. [33-1] at 188. As a result, another
channel of communication was available to Dyer during the
suspensions.6
Accordingly, APS’s removal of Dyer and suspension from
board meetings did not violate Dyer’s right of free speech,
6 There may be a dispute regarding APS’s February 2019 letter(s)
to Dyer. One letter, dated February 6, does not ban all forms of
communication with APS officials. The other;- dated February 8, does
include such a ban. Though Dyer contends in his response to APS’s
motion for summary judgment that APS “submitt[ed] tampered
evidence” and committed] “perjury” by-offering the February 6 letter
into evidence, [35^2] at 25, he authenticated and acknowledged receipt
of the February 6 letter during, his deposition. .

55

and the Court will grant Defendants’ motion for summary
judgment as to Dyer’s First Amendment claim.
B. Procedural Due Process Claim
Dyer also makes a procedural due process claim
alleging that APS violated his right to due process when it
prohibited him from participating in board meetings and
issued notices against trespass in its October and February
letters.
The Fourteenth Amendment protects individuals
from deprivations of life, liberty, or property without due
process. U.S. CONST. Amend. XIV, § 1. A procedural due
process claim requires a showing of (1) a deprivation of a
constitutionally protected liberty or property interest; (2)
state action; and (3) constitutionally inadequate process.
Grayden v. Rhodes, 345 F.3d 1225, 1232 (11th Cir. 2003).
There is no dispute that APS’s involvement constitutes
state action. However, the parties debate whether there
was a deprivation of a constitutionally protected interest.
Dyer also argues that he received inadequate process. The
Court will address each of these arguments in turn.
1. Liberty or Property Interest
Dyer does not explicitly argue that APS has deprived
him of any interest. However, he appears to contend
that APS deprived him of a liberty interest—his First
Amendment right to access school property in order to
express himself at board meetings. Courts: generally have
found that members of the public lack a constitutionally
protected interest in accessing school property. See
Hannemann v. S. Door Cnty. Sch.Mist., 673 F.3d 746,
755—56 (7th Cir. 2012); Martin v, .Clark, No. 3:10-cv-1500,
2010 WL 4256030, at *2 (N.D.. Qhio Oct. 21, 2010) (finding
no authorityin any jurisdictiqn “that establishes [that] he
has a liberty interest in attending school functions or being
on school .property^ ; Pearlman v. -Cooperstown Cent. Sch.
Dist., No. 3:01-cv-504, 2003 WL 23723827, at *3 (N.D.N.Y.
Apr. 6, 2003); Lovern v. Edwards, 19();F.3d 648, 655—56
(4th Cir. 1999); see alsoJCarey{v, Bj:own, ,A^l U.S. 455,

56
470-71 (1980) (finding that state officials can limit access
to school grounds “to protect the public from boisterous
and threatening conduct that disturbs the tranquility of
. . . schools”) (quoting Gregory v. Chicago, 394 U.S. Ill,
118 (1969) (Black, J., concurring)). Accordingly, Dyer has
no protected liberty interest in unfettered access to school
property.
However, even if Dyer cannot assert a liberty interest
in accessing school property generally, the notice against
trespass prohibited his participation in a school board
meeting on school property. As the Court noted at the
motion-to-dismiss stage of this litigation, a district court
in an analogous case found that such a trespass notice
deprived an individual of a constitutionally protected
liberty interest in engaging in public comment at school
board meetings. See Cyr u. Addison Rutland Supervisory
Union, 955 F. Supp. 2d 290, 295-96 (D. Vt. 2013).
APS contends that the Court need not reach this issue
because Dyer’s due process claim is duplicative of his First
Amendment claim. APS argues that, because there is no
First Amendment violation, the related due process claim is
without merit.
Though not in as many words, APS argues in favor
of an expansive interpretation of the Graham rule. That
rule “requires that if a constitutional claim is covered by
a specific constitutional provision, such as the Fourth or
Eighth Amendment, the claim must be analyzed under the
standard appropriate to that specific provision, not under
the rubric of substantive due process.” Cnty. of Sacramento
v. Lewis, 523 U.S. 833, 843 (1988) (internal quotations
omitted). While the Supreme Court applies the Graham
rule to substantive due process claims only, lower courts
are split as to whether the rule should be extended to a
procedural due process claim, which “seeks to redress the
process by which a liberty or property interest is denied,
not the actual denial of that right.” Cyr, 955 F. Supp. 2d
at 295—96; cf. Ritchie v. Coldwater Cmty. Sch., No. 1:11cv-530, 2012 WL 2862037 (W.D. Mich. July 11, 2012);
Decker v. Borough of Hughestown, No. 3:09-cv-1463, 2009

'.I
i

$
57

WL 4406142, at *4-5 (M.D. Pa. Nov. 25, 2009). Thus, the
question becomes: Is Dyer’s claim that the trespass notices
violated his First Amendment right a substantive or a
procedural due process claim?
Substantive due process “bars certain arbitrary,
wrongful government actions regardless of the fairness
of the procedures used to implement them.” Zinermon
v. Burch, 494 U.S. 113, 125 (1990) (internal quotations
omitted). By contrast, a procedural due process claim
challenges the fairness of the procedures through which
the government denies a constitutionally protected interest
in life, liberty, or property. Id. at 125. In other words, the
deprivation by itself is not unconstitutional, but due process
of law is required in order to deprive an individual of such
an interest. Id. Here, Dyer’s allegation clearly asserts a
procedural due process claim, and the Court declines to
apply the Graham rule to that procedural due process
claim. Accordingly, the Court will determine whether APS
afforded Dyer constitutionally adequate process in regard
to the October and February trespass notices.
, 2. Constitutionally Adequate Process
A procedural due process claim requires consideration
of whether a claimant had an “opportunity to be heard at
a meaningful time and in a meaningful manner.” Mathews
v. Eldridge, 424 U.S. 319, 333 (1976). As noted above, Dyer
appears to argue that he did not receive a meaningful
opportunity to contest the two trespass notices/warnings.
APS does not argue in its, summary judgment briefing that
Dyer was afforded an adequate opportunity to be heard,
instead.relying entirely on its.contention that Dyer’s First
Amendment and du.e process .claims, are.redundant..
While the Court declines to.find that jthe claims are
redundant under the Graham.rule, the Court nevertheless
disagrees with Dyer’s contention that he did not receive
an adequate opportunity to contest Jus,nptiqes. against
trespass.,
7.7 'c 7.7*7.
.“Due process is>a flexible concepfithat varies with the
particular situation.” Gyydey. vs Oxendine., 24 F.3d.-175,

i

58
177 (11th Cir. 1994); see also Dixon v. Ala. State Bd. of
Educ., 294 F.2d 150, 158 (5th Cir. 1961) (“The nature of the
hearing should vary depending upon the circumstances of
the particular case.”)- As a general rule, if “the state is in a
position to provide for predeprivation process,” Hudson v.
Palmer, 468 U.S. 517, 534 (1984), it must do so. However,
under “rare and extraordinary” circumstances, Goss v.
Lopez, 419 U.S. 565, 582 (1975), “postdeprivation remedies
made available by the State can satisfy the Due Process
Clause,” Parratt v. Taylor, 451 U.S. 527, 538 (1985),
overruled on other grounds by Daniels v. Williams, 474 U.S.
327, 330 (1986).
One such “rare and extraordinary” circumstance
occurs when an individual presents an “ongoing threat of
disrupting the educational process.” Castle v. Marquardt,
632 F. Supp. 2d 1317, 1332 (N.D. Ga. 2009) (citing
Goss, 419 U.S. at 582). At the motion-to-dismiss stage
of this litigation, the record did not reflect that such an
extraordinary circumstance existed.
However, Dyer clearly presented such a threat when
he shouted racial slurs in front of children present at the
board meetings, accused school board officials of committing
crimes akin to murder, and tried to “send a message” that
school officials were “just as destructive” as members of
the Ku Klux Klan. [33-1] at 79-80; see Hill v. Bd. of Trs.
of Mich. State Univ., 182 F. Supp. 2d 621, 630 (W.D. Mich.
2001) (approving a student’s suspension with only a post­
deprivation remedy where the student was arrested for
inciting a riot). Consequently, a post-deprivation remedy is
all that is required.
Dyer had such a post-deprivation remedy available to
him through the Georgia Open Meetings Act (“GOMA”),
O.C.G.A. § 50-14-1 et seq. Section 50-14-1 authorizes an
individual to file a civil suit when he or she is affected
by a violation of GOMA, such as the requirement that
government meetings be open to the public. Through
GOMA, Dyer could seek an injunction or other equitable
relief to challenge his trespass notice. See Scott v. Atlanta
Indep. Sch. Sys., No. l:14-cv-01949-ELR, 2015 WL

59
12844305, at *4-5 (N.D. Ga. Sept. 14, 2015).
Thus, an adequate state remedy existed to provide Dyer
with an opportunity7 to contest the notices against trespass.
Such a procedural remedy cures APS’s failure to provide
Dyer with a post-deprivation hearing, for a procedural due
process claim brought pursuant to § 1983 can stand only
when “the state refuses to provide a process sufficient to
remedy the procedural deprivation,” McKinney v. Pate, 20
F.3d 1550, 1557 (11th Cir. 1994).
Accordingly, the Court will grant APS’s motion for
summary judgment as to Dyer’s procedural due process
claim.
IV. Conclusion
For the foregoing reasons, Defendants’ motion [34] for
summary judgment is granted. To the extent that Dyer
intended to file a cross-motion [37] for summary judgment,
that motion is denied.
IT IS SO ORDERED this 5th day of December, 2019.

I

Timothy C. Batten, Sr.
United States District Judge

7 Dyer need not have actually taken advantage of this remedy for
it to trigger the adequate-state-remedy doctrine. Horton v. Bd. of Cty.
Comm’rs of Flagler Cty., 202 F.3d 1297, 1300 (11th Cir. 2000).

■te.

60

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
NATHANIEL BORRELL DYER,
Plaintiff,
v.
ATLANTA INDEPENDENT SCHOOL SYSTEM
(Atlanta Public Schools),
Defendant.
CIVIL ACTION FILE
NO. 1:18-cv-3284-TCB
ORDER
This case comes before the Court on the motion [2]
of Defendant Atlanta Independent School System a/k/a
Atlanta Public Schools (“APS”) to dismiss Plaintiff
Nathaniel Dyer’s complaint for failure to state a claim.
I. Background i
Dyer is a graphic designer by trade but spends much
of his time as a community advocate for issues related
to children and education in the Atlanta area. Over the
past decade or more, Dyer has found himself at odds with
Atlanta schools and their leadership.
A significant incident in this rocky relationship occurred
in 2006, while Dyer was volunteering at John F. Kennedy
Middle School. He alleges that APS charged him with
disorderly conduct after he broke up a violent fight between
two students. The charges were eventually dismissed, but
Dyer was no longer allowed to volunteer at that school.

1 At the motion-to-dismiss stage, the Court accepts as true all of
Dyer’s well pleaded allegations.

61
After this disruptive episode, Dyer remained engaged
■with APS.
He considered it his mission to police APS and its
officials for “federal violations and problems plaguing the
district... “[1-1] ,i 12. He would often deliver his criticisms
during public comment sessions at APS school board
meetings.
Dyer’s activism continued to get him in trouble with
APS and its officials. He attended several school board
meetings and, based on his conduct at these meetings, was
suspended multiple times. The suspensions restricted him
from participating in public comment, stepping foot upon
any APS property, or communicating with any
APS personnel.
The first suspension occurred on January 15, 2016. The
suspension letter alleged that Dyer used racial slurs and
derogatory terms that violated the rules of decorum for
school board meetings. The suspension lasted six months,
until July 2016.
Nevertheless, Dyer attended the next meeting, which
was on February 1. He was not allowed to speak during the
public-comment segment and was, in his words, “harassed”
by resource officers for attending. Id. U 23.
APS suspended Dyer again on October 11, 2016. He was
told this suspension was based, at least in part, on his use
of the word “Sambos” to refer to APS students during a
public comment session. He does not deny using this term.
Instead, he contends he was not given an.opportunity to
finish or expound upon his statement before being asked
to step down. Dyer was led out of the meeting by APS
officers while he tried to explain his use of the term.2 This
suspension lasted fourteen.months, until December 31, 2017.
On February 8, 2018,. APS suspended Dyer a third
time. The suspension letter apeused.;Dyer of psing

2 Dyer avers that several-witnesses say they did not hear him refer
to children as “Sambo.s” hut appears to admit that he did, in fact, use
the word. .

62

“racist and hate-filled epithets,” [1-1] t 47, based on
photoshopped fliers containing the tagline “unnigged
coming soon” and a photo of APS Superintendent Meria J.
Carstarphen wearing a jersey superimposed with the word
“FALCOONS.” Dyer claims he used no racially insensitive
language in his verbal comments and that the suspension
was based only on the literature distributed at the meeting.
The suspension was for one year.
Dyer alleges myriad other ill treatments following from
or in addition to the suspensions, all allegedly in retaliation
for his self-appointed ombudsman role. For example, he
alleges that an APS employee referred to him as “the
pedophile,” [1-1] at 9, when a parent inquired about him.
He was also running for election to the board of education
in 2018, but due to the APS suspensions was prohibited
from participating in a candidate forum because it was held
on APS property.
Dyer brings this suit under 42 U.S.C. § 1983 against
APS for violations of his right to free speech under the First
Amendment (count 1) and right to procedural due process
under the Fourteenth Amendment (count 2). He also
alleges claims that the Court construes as arising under
state law for slander per se (count 3), discrimination and
retaliation (count 4), and harassment (count 5).
APS has moved to dismiss all of Dyer’s counts for failure to
state a claim.
II. Legal Standard
Federal Rule of Civil Procedure 8(a)(2) requires that
a complaint provide “a short and plain statement of the
claim showing that the pleader is entitled to relief[.]”
This pleading standard does not require “detailed factual
allegations,” but it does demand “more than an unadorned,
the-defendant-unlawfully-harmed-me accusation.”
Chaparro v. Carnival Corp., 693 F.3d 1333, 1337 (11th Cir.
2012) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
Under Rule 12(b)(6), a plaintiff must plead “enough facts
to state a claim to relief that is plausible on its face.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007); Chandler

63
v. Sec’y of Fla. Dep’t of Transp., 695 F.3d 1194, 1199 (11th
Cir. 2012) (quoting id.). The Supreme Court has
explained this standard as follows:
A claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged. The plausibility standard is not
akin to a “probability requirement,” but it asks for more
than a sheer possibility that a defendant has
acted unlawfully.
Iqbal, 556 U.S. at 678 (citation omitted) (quoting Twombly,
550 U.S. at 556); see also Resnick u. AvMed, Inc., 693 F.3d
1317, 1324-25 (11th Cir. 2012).
Thus, a claim will survive a motion to dismiss only if the
factual allegations in the complaint are “enough to raise
a right to relief above the speculative level ... “ Twombly,
550 U.S. at 555-56 (citations omitted). “[A] formulaic
recitation of the elements of a cause of action will not do.”
Id. at 555 (citation omitted). While all well-pleaded facts
must be accepted as true and construed in the light most
favorable to the plaintiff, Powell.v. Thomas, 643 F.3d 1300,
1302 (llth Cir. 2011), the Court need not accept as true
the.plaintiffs legal conclusions, including those couched as
factual allegations, Iqbal, 556 U.S. at 678.
Thus, evaluation of a motion to dismiss requires two
steps: (1) eliminate any allegations in the pleading that
are merely legal conclusions, and (2) where there are wellpleaded factual allegations, “assume their veracity and
then determine whether, they plausibly give rise to an
entitlement to relief.” Iqbal, 556 U.S. at 679.
The Court liberally construes the facts in favor of Dyer,
a pro se plaintiff, in its,-reyie,w of the motion to dismiss.
Tannenbaum v. United,States, 148 F.3d 1262, 1263 (llth
Cir.; 1998)- •
>:

III. Discussion
APS’s.motion comes in three jd,arts..' First, it argues that
a number of Dyer’s federal claims are barred by the statute
of limitations. Second, it argues that:it’did not violate

64
Dyer’s constitutional rights under the First or Fourteenth
Amendments. Third, it argues that Dyer’s state-law claims
are barred by sovereign immunity. These are taken in turn.
A. Statute of Limitations
APS contends that Dyer’s claims are governed by a
two-year statute of limitations. Dyer initially argued that
Georgia’s “discovery rule” applies and that under this rule
all of his claims are timely.
However, in his “amended response” [18] in opposition
to the motion to dismiss, he “does not dispute that the twoyear statute of limitations bars claims predating June 4,
2016.” [18] at 5. Accordingly, the Court holds that all claims
arising from Dyer’s suspensions prior to June 4, 2016 are
time-barred.3
B. Constitutional Claims Pursuant to Section 1983
Now the Court turns to Dyer’s alleged constitutional
violations brought pursuant to§ 1983. Section 1983 creates
no substantive rights. See Baker v. McCollan, 443 U.S.
137, 144 n.3 (1979). Rather, it provides a vehicle through
which an individual may seek redress when his federally
protected rights have been violated by an individual acting
under color of state law. Livadas v. Bradshaw, 512 U.S.
107, 132 (1994).
To state a claim for relief under§ 1983, a plaintiff must
satisfy two elements. First, he must allege that an act or
omission deprived him of a right, privilege, or immunity
secured by federal law. Hale u. Tallapoosa Cty., 50 F.3d

3 Even if Dyer did not concede the issue, the Court would conclude
that, under federal law, Dyer’s contention that Georgia’s discovery
rule apphes is without merit. See Lovett v. Raj7, 327 F.3d liSl, 1182
(11th Cir. 2003) (holding that federal law governs the commencement
of§ 1983 statute of limitations). Dyer’s § 1983 claim began to run at
the time when his alleged constitutional violations occurred because
a reasonably prudent person with regards for their rights would have
known that his rights were violated at that time. See id.-, Wallace v.
Kato, 549 U.S. 384, 388 (2007).

65
1579, 1582 (11th Cir. 1995). Second, he must allege that the
act or omission was committed by a state actor or a person
acting under color of state law. Id. The issue of state action
is uncontested, so the Court need only consider whether
Dyer was deprived of his federal constitutional rights.
Dyer first contends that APS’s suspensions infringed his
First Amendment right to free speech. Second, he contends
he was suspended from school board meetings without due
process of law as required by the Fourteenth Amendment.
1. First Amendment
In light of the Court’s decision on the statute-oflimitations issue, the Court’s review of Dyer’s First
Amendment claim is limited to violations occurring after
June 4, 2016. Thus, the universe of alleged violations
includes APS’s October 11, 2016 suspension lasting through
December 31, 2017, as well as APS’s February 8, 2018
suspension lasting through February 8, 2019. Based on
these two incidents,4 the Court considers whether APS
violated Dyer’s First Amendment rights.
First Amendment claims proceed in three steps. First,
the Court determines whether Dyer’s “speech [was]
protected by the First Amendment... “ Cornelius v. NAACP
Legal Def & Educ. Fund, Inc., 473 U.S. 788, 797 (1985). If
so, the Court next “must identify, the nature of the forum”
in which Dyer spoke. Id. Then the Court asks “whether the
justifications for exclusion from the relevant forum satisfy
the requisite standard.” Id.
APS argues that Dyer’s speech was not protected by the
First Amendment, and that even if it was protected, the
restrictions were reasonable. The parties do not dispute
that the school board meetings were limited public fora.
a. Protected Speech
................
APS argues, and Dyer contests,-that his speech at the
school board meetings was. not protected by the First
4 It is also possible that a portion of the January 15, 2016
suspension may fall within the applicable limitations period.

1

■j

66
Amendment. First, APS alleges that Dyer’s reference to
“Sambos” was not protected as it was “insulting, racially insensitive language” used in reference to APS students.
[2-1] at 4-5. Second, APS alleges that Dyer’s distribution of
flyers containing the phrase “unnigged” and “FALCOONS”5
was not protected because it involved “offensive and
racially-charged” language aimed at “mocking” a school
board official. Id. at 17.6
The First Amendment “is a guarantee to individuals
of their personal right ‘to make their thoughts public and
put them before the community.’” Belyeu v. Coosa Cty.
Ed. of Educ., 998 F.2d 925, 930 (11th Cir. 1993) (quoting
Curtis Publ’g Co. v. Butts, 388 U.S. 130, 149 (1967)). “At
the heart of the First Amendment is the recognition of the
fundamental importance of the free flow of ideas on matters
of public interest and concern.” Hustler Magazine, Inc. v.
Falwell, 485 U.S. 46, 50 (1988). “[T]he freedom to speak
one’s mind is not only an aspect of individual liberty-and
thus a good unto itself-but also is essential to the common
quest for truth and the vitality of society as a whole.” Id.
at 50-51 (alteration in original) (quoting Bose Corp. v.
Consumers Union of United States, Inc., 466 U.S. 485,
503-04(1984)).
Consistent with these principles, the Court must
also consider that the First Amendment protects speech
that society may not like or finds unpopular. Snyder
v. Phelps, 562 U.S. 443, 458 (2011) (quoting Texas u.
Johnson, 491 U.S. 397, 414 (1989)) (“If there is a bedrock
principle underlying the First Amendment, it is that the
5 Dyer is African-American.
6 APS also appears to argue that Dyer’s .use of the word “buffoon”
or other derogatory terms to criticize the school board falls outside
the First Amendment’s protections. The Court soundly rejects such
an argument. It is beyond peradventure that a citizen has a First
Amendment right to criticize government officials. Trulock v. Freeh, 275
F.3d 391, 404 (4th Cir. 2001) (“The First Amendment guarantees an
individual the right to speak freely, including the right to criticize the
government and government officials.”).

r

67

government may not prohibit the expression of an idea
simply because society finds the idea itself offensive or
disagreeable.”)- Indeed, and contrary to APS’s contention
regarding offensive speech, “the free speech clause protects
a wide variety of speech that listeners may consider deeply
offensive, including statements that impugn another’s race
or national origin or that denigrate religious beliefs.” Saxe
v. State Coll. Area Sch. Dist., 240 F.3d 200, 206 (3d Cir.
2001).,Theprotection of such offensive, speech is arguably
one of the most important functions of the
First Amendment.
There is no question that Dyer’s use of “Sambos” and
“unnigged” was patently offensive. But no matter how
despicable the rhetoric may be, it cannot be said that
such speech is categorically unprotected by the First
Amendment. Unprotected categories of speech are confined
to a “well-defined and narrowly limited” list. Chaplinsky u.
New Hampshire, 315 U.S. 568, 571 (1942); see also United
States v. Stevens, .559 U.S. 460, 468-69 (2010) (listing the
categories of traditionally unprotected speech).
“The First Amendment itself reflects a judgment by
the American people that the benefits of its restrictions
on the Government outweigh the costs. Our Constitution
forecloses any attempt to revise that judgment simply on
the basis that some speech is not worth it.” Stevens, 559
U.S. at 4 70. Given the centrality of First Amendment
freedoms to the constitutional guarantees inhered to every
citizen of this country, Courts should be wary of expanding
the hst of.unprotected; speech or too readily finding that.
speech has wandered from the warm,hedgerows of/First
Amendment protection into the wild dells of unprotected
speech. See id. at 471 (declining to exclude .animal cruelty
from First Amendment protection or analyze the First
Amendment protectability “on-the basis of a simple costbenefit analysis”) . The Court, is reluctant, to do so here.
A decision that Dyer’s speech is.per .se unprotected by
the First Amendment would be a weighty and heavyhanded' determination at this stage of the case. This is
particularly true when, as he re, the Court construes Dyer’s

68

alleged speech as political speech regarding local school
governance; this category of speech finds First Amendment
protection at “its zenith.” Meyer v. Grant, 486 U.S. 414, 425
(1988) (quoting Grant v. Meyer, 828 F.2d 1446, 1457 (10th
Cir. 1987)).
APS has pointed the Court to no case in which speech
similar to Dyer’s was found categorically outside First
Amendment protection. For example, APS’s attempts to
analogize its regulation of Dyer’s speech to the regulations
of prostitution or other illegal sex acts upheld in Arcara v.
Cloud Books, Inc., 478 U.S. 697 (1986), is unpersuasive.
The regulations in Arcara had only an incidental effect on
protected expression because the unlawful regulations were
primarily aimed at unlawful conduct. Dyer was engaged in
lawful conduct at the school board meetings from which he
was eventually banned. Thus, Arcara is in apposite.
The Court also finds APS’s reliance on Wright v. City of
St. Petersburg, 833 F.3d 1291 (11th Cir. 2016), misplaced.
In that case the plaintiff engaged in street ministry and
outreach to the poor and homeless. He noticed a man being
interrogated by the police and attempted to engage the
officers, asking what the man had done wrong and telling
the police to stop harassing him. A police officer instructed
the plaintiff to not interfere, but he did not comply. The
officers then arrested him for obstruction and issued him a
trespass warning. The warning, barring him from going on
to that same park for a year. The plaintiff filed suit alleging
the ordinance pursuant to which he was issued a trespass
warning violated the First Amendment. The Eleventh
Circuit held that it did not.
APS cites this case for its argument that Dyer’s speech
was unprotected. But the Eleventh Circuit’s decision was
more nuanced than this. It clearly held that the plaintiff
engaged in protected speech while ministering and
advocating for the less fortunate. See id. at 1293 (“There is
no question that the First Amendment protects Wright’s
ministerial outreach and political speech.”). However, in
upholding the plaintiffs arrest and the trespass warning,
the court concluded that the warning was not issued in

69
response to his protected speech; rather, it was issued
because he failed to obey the lawful command of a police
officer, which was not expressive conduct. Thus, it was
his failure to obey the officer, not his street ministry, that
prompted the officer to issue the trespass warning.
Contrastingly, when viewing the complaint in the light
most favorable to Dyer, APS’s suspensions were issued in
direct response to Dyer’s alleged protected speech at the
school board meetings. This distinguishes our case
from Wright.
In the absence of cases supporting APS’s contention
that Dyer’s speech was unprotected, the Court believes it
more prudent to follow other cases where extraordinarily
offensive speech, such as Dyer’s, was found to be protected
by the First Amendment. See Cohen v. California, 403 U.S.
15, 18 (.1971) (reversing conviction that was based solely on
“the asserted offensiveness of the words [the defendant]
used to convey his message to the public” on a jacket that
read “Fuck the Draft”); Rodriguez v. Maricopa Cty. Cmty.
Coll. Dist., 605 F.3d 703, 708 (9th Cir. 2010) (holding that
professor’s racially charged commentaries were protected
by the First Amendment because “the government may not
silence speech because the ideas it promotes are thought to
be offensive”); see also Hardy v. Jefferson Cmty. Coll., 260
F.3d 671, 679 (6th Cir. 2001) (professor’s use of the word
“nigger” protected by the First Amendment because it was
germane to subject-matter of college lecture); Bonnell v.
Lorenzo, 241 F.3d 800, 820-21 (6th Cir. 2001)(discussing
constitutional rights to use words that, depending on the
context, may be considered vulgar.or offensive).
The Court wants to make abundantly clear that the
terms Dyer used are abhorrent. But abhorrence does not
ipso facto bring them outside the First Amendment’s
protection.
Moreover, at this stage the record is too undeveloped for
the Court to even determine, the full extent of what Dyer
said at these meetings because the complaint supports
only the .conclusion that he used the word “Sambos” and
“unnigged” in his comments at school board meetings. He

70

appears to deny the use of other slurs as alleged by APS or
the characterization and context of such usage as alleged
by APS. E.g., [1-1] 48 (Dyer did not use any language
that could be considered a racial epithet during his public
comment[.]”); id. 39 (“Courtney English ... claimed that
Mr. Dyer called children “Sambos” during the public
comment portion of the meeting.” (emphasis added)).
Similarly, to the extent APS contends that Dyer’s
speech was unprotected because it constituted ‘’’fighting’
words, that is, words ‘which by their very utterance inflict
injury or tend to incite an immediate breach of the peace,”
Wilson u. Attaway, 757 F.2d 1227, 1246 (11th Cir. 1985)
(quoting Chaplinsky, 757 F.2d at 1242), the Court finds it
inappropriate to make a determination on this issue at the
motion-to-dismiss stage. The Eleventh Circuit has made
clear that determining “whether the tendency of words is to
provoke violence” is an issue “of fact.” Id. While the Court is
acutely aware of the radioactive nature of Dyer’s words, the
facts and inferences drawn in the light most favorable to
Dyer do not permit the Court to conclude, at this stage, that
his words constituted unprotected fighting words.
Thus, the Court is driven to the conclusion, based on
the cases argued and the stage of factual development in
this case, that Dyer’s speech was protected by the First
Amendment. However, it reserves a final determination
on this issue after further factual development. Cf. King
u. Ed. ofCty. Comm’rs, No. 8:16-cv-2651-T-33TBM, 2018
WL 515350, at *2 (M.D. Fla. Jan. 23, 2018) (“[T]he legal
question of whether speech is protected by the First
Amendment is highly fact-specific.”).
This of course has no bearing on whether APS may
properly restrict Dyer’s speech, the issue to which the Court
now turns.
b. First Amendment ScrutinyLimited Public Fora
There is no dispute that APS’s suspensions restricted
Dyer’s protected speech. These restrictions must now pass
through the relevant level of scrutiny, which asks whether

r

7.1
the regulations on Dyer’s speech were reasonable based on
the forum in which he was speaking.
“[I]n evaluating a citizen’s right to express his opinion
on public property, the Court has established certain
boundaries within which it balances a citizen’s First
Amendment rights and the government’s interest in
limiting the use of its property.” Jones u. Heyman, 888 F.2d
1328, 1331 (11th Cir. 1989).
Courts use “forum analysis” to evaluate government
restrictions on purely private speech that occurs on
government property. In forum analysis, we identify the
type of government forum involved and then apply the
test specific to that type of forum in evaluating whether
a restriction violates the First Amendment.
Barrett v. Walker Cty. Sch. Dist., 872 F.3d 1209, 1223-24
(11th Cir. 2017) (citation omitted) (quoting Walker v. Tex.
Div., Sons of Confederate Veterans, Inc., 135 S. Ct. 2239,
2250(2015)).
The parties agree that school board meetings are
limited public fora, so there is no dispute as to the relevant
standard of scrutiny. Restrictions on speech in limited
public fora must be “content-neutral conditions for the time,
place, and manner of access, all of which must be narrowly
tailored to serve a significant government interest.”
Crowder u. Hous. Auth. of City of Atlanta, 990 F.2d 586,
591 (11th Cir. 1993). The restrictions must also “leave
open ample alternative channels for communication.” Perry
Educ. Ass’n v. Perry Local Educators’Ass’n, 460 U.S. 37,
45(1983).
APS’s purported justifications suffer from the same
procedural malady as the protected-speech issue analyzed
above. Its resolution requires a level of analysis that
is inappropriate at the motion-to-dismiss stage. APS
implicitly relies on facts not derived from or contrary to
those-found in Dyer’s complaint; or it calls for inferences
adverse to Dyer. For (example, APS references a commotion
in the audience caused by Dyer’s speech at the. school
board meetings. It argues that.Dyer’s .speech disrupted the
meetings when he refused to leave, [2-1] at 10, and.that

72

these disruptions prevented APS from efficiently moving
through meeting topics, id. at 15. Dyer, however, contests
the disruptiveness of his speech at the school board
meetings, and at this stage an inference of disruption, even
if present in the complaint, may not be drawn in APS’s
favor. And whether there was a disruption due to Dyer’s
speech is directly relevant to APS’s contention that its
suspension was justified under First Amendment scrutiny.
Such disputes on material issues, among others, preclude
judgment for APS at the motion-to-dismiss stage.
The Court is also mindful that APS bears the burden of
showing that it survives the limited public fora scrutiny.
Board ofTrs. of State Univ. of N.Y. v. Fox, 492 U.S. 469,
480 (1989) (“[T]he State bears the burden of justifying
its restrictions” on protected speech.); Elrod v. Burns,
427 U.S. 347, 362 (1976) (holding that “the burden is on
the government to show the existence of its interest in
regulating protected speech); Doe v. City of Albuquerque,
667 F.3d 1111, 1131 (10th Cir. 2012) (“The City has the
burden of proof in this inquiry.”). And “since the State
bears the burden of justifying its restrictions, it must
affirmatively establish the reasonable fit we require.” Fox,
492 U.S. at 480 (citation omitted).7
Though APS does not present its justifications for
restricting Dyer’s speech as an affirmative defense in
the traditional sense, it functions much the same. It is
generally inappropriate to decide affirmative defenses on a
motion to dismiss unless they “clearly appearn on the face
7 The restrictions are also a form of prior restraint on Dyer’s
speech. Such restraints occur when the Government has “den[ied]
access to a forum before the expression occurs.” Bourgeois u. Peters, 387
F.3d 1303, 1319 (11th Cir. 2004)(quoting United States v. Frandsen,
212 F.3d 1231, 1236-37 (11th Cir. 2000)). And a “prior restraint of
expression comes before [the] court with ‘a heavy presumption against
its constitutional validity.’” Universal Amusement Co. v. Vance, 587
F.2d 159, 165 (5th Cir. 1978) (quoting Bantam Books, Inc. v. Sullivan,
372 U.S. 58, 70 (1963)). This weighs in favor of requiring APS to further
develop the record before deciding the constitutional validity of the
suspensions.

I

73

of the complaint.” Quiller v. Barclays Am.I Credit, Inc.,
727 F.2d 1067, 1069 (11th Cir. 1984). The same principle
operates here. Because APS’s justifications are not clear
from Dyer’s complaint, the Court cannot rule in its favor
on the issue of First Amendment scrutiny when it bears
the burden on that issue. See Asociacion de Educacion
Privada de P.R., Inc. v. Echevarria-Vargas, 385 F.3d 81, 86
(1st Cir. 2004) (reversing a granted motion to dismiss “in
the absence of any evidence about the nature and weight
of the b.urdens imposed and the nature and strength of
the government’s justifications” in a First Amendment
challenge).
As APS has not had a chance to develop the record
regarding its restrictions on Dyer’s speech, the Court
defers its scrutiny of APS’s restrictions on Dyer’s speech to
the summary judgment stage. It may well be appropriate
for APS, in a limited public forum, to prohibit baselevel
rhetoric such as that Dyer was accused of using. But
the final.resolution of this issue must wait for summary
judgment after the facts have become clearer.
2. Procedural Due Process
'

'

V

‘

'

*

Dyer also contends that the suspensions were issued
without due process of law as required by the Fourteenth
Amendment. APS argues that Dyer fails to state a claim.
A procedural due process claim requires a showing of
(1) a deprivation of a constitutionally protected liberty or
property interest; (2) state action; and (3) constitutionally
inadequate process. Grayden v. Rhodes, 345 F.3d 1225,
1232 (11th Cir. 2003). Onty the first and third prongs
are contested. . . t
a. Deprivation of a Constitutionally .
Protected Interest
First, the Court determines whether Dyer has shown
either a liberty or a property interest protected by the
Due Process Clause. APS contends that Dyer lacked a
property interest in attending school board meetings. Even

1

74

if this was correct; APS does not argue that Dyer has no
constitutionally protected liberty interest, and the Court
holds that he does.
First Amendment rights are among the liberty interests
protected by the Due Process Clause of the Fourteenth
Amendment. Perry v. Sec’y, Fla. Dep’t of Corr., 664 F.3d
1359, 1367-68 (1.1th Cir. 2011)(finding a liberty interest
arising from a First Amendment right to access inmates).
Construing both Dyer’s complaint and his rights under the
First Amendment broadly, see id. at 1367, Dyer has alleged
at least a plausible liberty interest derived from the First
Amendment to participate in school board meetings.
However, this does not mean that Dyer has a First
Amendment right to access school property as a general
matter. The opinion in Cyr v. Addison Rutland Supervisory
Union, 955 F. Supp. 2d 290, 295-96 (D. Vt. 2013), is
instructive. There, the district court rejected a plaintiffs
contention, similar to Dyer’s, that a school board’s issuance
of a notice against trespass on school property violated
his procedural due process rights. Like Dyer, the plaintiff
asserted a liberty interest8 to access school property.
The district court rejected in part this argument. It
held that even though the plaintiff lacked a general liberty
interest in accessing school property, the notice against
trespass nevertheless “deprived him of First Amendment
rights without sufficient process” to the extent it prohibited
his participation in a school board meeting on school
property. Id. at 296.
Following Cyr, this Court does not hold that Dyer
“possesses a liberty interest-independent of the First
Amendment-in accessing school property.” Id. It does,
however, allow his claim to proceed on the basis that he
had a liberty interest in engaging in public comment at
school board meetings.

8 Dyer has not done this in so many terms, but construing the complaint
liberally the Court concludes that this is indeed Dyer’s contention.

75

b. Constitutionally Inadequate Process
Dyer must also demonstrate that the alleged deprivation
of his liberty interest was done without due process. APS
contends that Dyer had an adequate, post-deprivation
remedy under state law to challenge the suspensions.
Though not entirely clear, the Court construes Dyer’s
response to be that he was entitled to some process before,
rather .than after, the alleged deprivation. The Court once
again agrees.
The parties’ disagreement raises an issue that was not
thoroughly briefed by either party, namely whether Dyer
was entitled to pre- or post-deprivation process before APS
suspended him from public comment. APS’s argument
depends on a presumption that no pre-deprivation hearing
was required because it offers the Court only a post­
deprivation remedy-to correct the alleged due process
violation. Because APS does not further develop this
issue, the Court cannot resolve the motion in its favor at
this time.
, .
Generally, “some kind of.a hearing” is required “before
the State deprives a person a liberty or property interest.”
Zinermon v. Burch, 494 U.S. 113, 127 (1990). But .this is
not always the case. In Parratt v. Taylor, 451 U.S, 527,
538 (1985), overruled on other grounds by Daniels v.
Williams, 4 74 U.S. 327, 330 (1986), the Supreme Court
recognized that in certain circumstances “post-deprivation
remedies made available by the State can satisfy the Due
Process Clause.” See also Zinermon, 494 U.S. at 128 (“In
some circumstances, however, the Court, has held that
a statutory provision for a post-deprivation hearing, .or
a common-law tort remedy for erroneous deprivation,.
satisfies due process,”), These .situations, are often ones ,
in which “a State must,act quickly, or, where it would be
impractical to provide pre-depriyation process ... “Gilbert v.
Hamar, 520 U.S. 924,'930 (199.7), *
APS asks the Court to apply Parratt’s principles here
and hold that the Georgia Open Meetings Act (“GOMA”),
O.C.G.A.,§ 50-14-1 etrseq., provides an adequate state
remedy to Dyer’s alleged deprivation. UOMA authorizes

76
anyone to file a civil suit when he or she is affected by
a violation of GOMA, such as the requirement that
government meetings be open to the public.
However, a cause of action under GOMA is only a
post-deprivation remedy in the form of a civil,suit. This is
insufficient here.
Parratt and the adequate-state-remedy doctrine have
no application “when the state is in the position to provide
p re deprivation process.” Burch v. Apalachee Cmty. Mental
Health Servs., Inc., 840 F.2d 797| 801 (11th Cir. 1988);
see also Rittenhouse v. DeKalb Cty., 764 F.2d 1451, 1454
(11th Cir. 1985) (“Since predeprivation process was not
feasible [in Parratt], the Court held that the appropriate
analysis for a procedural due process claim would focus on
post-deprivation remedies.”); Keniston v. Roberts, 717 F.2d
1295, 1301 (9th Cir. 1983) (“[E]ven if a state tort action is
adequate to redress the damage to [plaintiffs] property,
we would have to find that a pre-deprivation hearing was
impractical in order to invoke the adequate state remedy
doctrine of Parratt”); Branch v. Franklin, No. l:06-cv1853-TWT, 2006 WL 3335133, at *2 n.l (N.D. Ga. Nov. 15,
2006) (noting the limitation of Parratt’s deprivation hearing
was required and concluding it does not apply when a
deprivation “was not a random or unauthorized act”). That
is, if “pred-eprivation procedures were practicable ... post­
deprivation remedies cannot provide due process.” Burch,
840 F.2d at 801.
Thus, the Court must consider the threshold question
of whether a pre-deprivation remedy was practical here.
The “controlling inquiry” for determining whether a pre­
deprivation hearing is required is “whether the state is in a
position to provide for pre-deprivation process.” Hudson v.
Palmer, 468 U.S. 517, 534 (1984). The Eleventh Circuit has
put it this way: “[A] pre-deprivation hearing is practicable
when officials have both the ability to predict that a hearing
is required and the duty because of their state-clothed
authority to provide a hearing.” Burch, 840 F.2d at 802.
Dyer has alleged sufficient facts, which APS has
not rebutted, to make it at least plausible that a pre-

77

deprivation remedy was practical before he was suspended.
APS’s suspensions were not issued immediately or as
an emergency measure to stop a live disruption. E.g., [11] at 45 (suspending Dyer on October 11 for conduct at
an October 10 meeting). APS was able to predict that a
hearing was required before suspending Dyer because it
took the time to create.a letter that applied prospectively to
him. Moreover, as APS has presumably been clothed with
the state’s authority to suspend persons froni attending
public meetings, it is its “duty ... to provide pre-deprivation
process.” Burch, 840 F.2d at 802 n.10.
To sum up, Dyer’s allegations make it plausible that
he was entitled to a hearing before APS deprived him of
his liberty interest. Under these circumstances, a post­
deprivation remedy, such as GOMA, will not satisfy due
process. Dyer’s procedural due process claim will therefore
be allowed to proceed.9
C. State-Law Claims and Sovereign Immunity
Dyer also alleges counts that appear to arise under
state law for slander per se (count,3), discrimination and
retaliation (count 4), and harassment (count 5). APS
contends that these claims, if legally cognizable at all, are
barred by sovereign immunity.
A school district is a political subdivision of the State of
Georgia and can avail itself of sovereign immunity, which
can be waived “only by an Act of the General Assembly
which specifically provides that sovereign immunity is
thereby waived and the extent„of the waiver.” Wellborn
v. DeKalb Cty. Sch. Dist., 489 S.E.2d 345, 347 (Ga. Ct.
App. 1997). Dyer bears the burden Of demonstrating the
existence of a waiver. Bomia u. Ben Hill Cty. Sch, Dist.,
740 S.E.2d 185, 188 (Ga. Ct. App! 2013).
Dyer has pointed to, no waiver of sovereign immunity
that would cover APS:. While: he correctly contends that
9 Because the. Court’s decision here is based on underdeveloped
briefing of the issues, APS is free to renew its arguments at-summary
judgment on these issues.

78

sovereign immunity does not apply to his claims under§
1983, it is applicable to his state-law claims, and he has
failed to rebut this argument. Thus, APS is entitled to
judgment on Dyer’s state-law claims. Accord Davis u.
DeKalb Cty. Sch. Dist., 996 F. Supp. 1478, 1484 (N.D.
Ga. 1998) (“The Georgia Tort Claims Act provides for a
limited waiver of the state’s sovereign immunity for the
torts of its officers and employees, but it expressly excludes
school districts from the waiver. Therefore, the Georgia
Tort Claims Act... does not divest the School District of its
sovereign immunity.” (citation omitted)).
IV. Conclusion
For the foregoing reasons, APS’s motion [2] to dismiss
for failure to state a claim is granted in part and denied
in part. Dyer’s§ 1983 claims under the First Amendment
(count 1) and the Fourteenth Amendment Due Process
Clause (count 2) may proceed. His state-law claims
(counts 3 through 5) are dismissed as barred by
sovereign immunity.10

10 The Court also grants Dyer’s motion (11] for leave to file excess pages. The
Court denies his motions [14, 20] to allow late filings. Dyer has not shown good
cause for his late filings or successive and repetitive briefing of issues, nor will this
be allowed in future filings. Dyer is directed to this Courts Local Rule 7.1 regarding
the filing of motions. Dyer should not file successive motions or responses to
motions without first obtaining leave of the Court and showing good cause.
Dyer is also required from this point forward to comply Local Rule 5.1(C)
regarding formatting, spacing, and font for filings with this Court. Dyer is
specifically warned that the Court will disregard any future filings that are not 14point, double-spaced, and in an approved font. Failure to comply with this Order or
the local rules may result in sanctions including and up to dismissal of this case.
The Court denies APS’s motion [13] and objections [19] as moot due to the
foregoing rulings.

79

Accordingly, APS is ordered to file a responsive pleading
to counts 1 and 2 by April 4.
IT IS SO ORDERED this 14th day of March, 2019.

Timothy C. Batten, Sr.
United States District Judge

80

APPENDIX D
Mr. Dyer’s Satirical Flyer

\

FALCONS may
WNEVER win the BIG ONE,

*ifcrat he's got a PRO-BOWL
PUPPET that's bringing
home all the TROPHIES to
help destroy BLACK children
and their communities.

BEST. '
1
ACADEMY J
■“--f*

- - r-

I *■

DOUGLASS

AMSVIL

iMENTAR

'.ajMEOTARY
>. I *

.
FAIN A
iVNS '
. M i ELEMENTARY

m

j Ii:

■T
rs*

j
* WASHING

'jJBEXHUNE.1

nr=* '!rK~r xM*

w, " '

'i So .
**. «*•»«

'

3

-

'

/<C>WHITEF

“

.tn-

iCreated by Nathaniel 8. Dyer, UNNIGCED

•'J

81

m

ALL-STAR

7li

&

0

ffllCOONS wf

fU

lj

cr

fflMllFSE

i

?

fH] SELLING SCHOOLS, She tackles the issues of
LJ deeds from the city to sell them to developers
for gentrification of Black neighborhoods.

FR AGE DISCRIMINATION - More than 100
,LJ teachers over 40 are suing this rookiefor
age discrimination. The culture of fear and
intimidation still exists within Atlanta Public
CLOSING SCHOOLS - She closed schools such
Schools and it may have intensified.
as Bethune ES and Kennedy MS located in the
H
POLICE FORCE - She created a police force
midst of a minimum of five billion dollars in
development which includes Arthur Blank's
claiming they are to aid with mentoring
Mercedes Benz Stadium Project.
Students. To date, bullying and discipline issues
are still prevalent within APS at an all-time high.
[f] MERGING SCHOOLS - She has merged
^ BODY CAMERAS FOR OFFICERS - Offering
Black students together into overcrowded
situations while proposing options to alleviate
little money for exposure and resources to help
overcrowding for White students.
children, this rookie wants to expose them in a
hi-tech manner to be legally profiled for life.
@ PRIVATIZING SCHOOLS - She gives private
^
INEQUITIES - She caters heavily to White
operators, Purpose Built Communities and
Kindesi, carte blanc and long contracts with
communities through whatever measures it
little to no accountability.
takes to help them maintain stability and an
uninterrupted learning experience. Anything
[j| CHARTER SCHOOLS - She places Kindesi and
to the contrary, this would cause White Flight.
KIPP schools in the heart of neighborhoods
And Lawdy, She's Sho nuffin Don't Wants Dat!
where she claims there is low student population.
Her latest KIPP move will kill Douglas High School. It's time to retire this rookie. A new contract
cannot be an option for what this third year
H OPPORTUNITY SCHOOL DISTRICT (OSD)
rookie has done to Atlanta's children who
She hired the architect of Gov. Nathan Deals'
possess so much promise and potential.
OSD proclaiming to save schools from takeover
but she closed them instead.
UNNIGGED COMING SOON! For more information, please contact
Nathaniel B. Dyer at 404.964.6427 or email district7@nathanielbdyer.com.

